                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




         AUDIT OF AN AMERICAN REINVESTMENT AND
          RECOVERY ACT GRANT AWARDED TO THE
        NEIGHBORHOOD REINVESTMENT CORPORATION

                       OIG REPORT 10-18




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on September 3, 2010. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than March 3, 2011 and complete its corrective actions by September 6,
2011. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                  Office of .Inspector General




                                      September 3, 2010

TO:           Paul Davis
              Acting Director, AmeriCorps*VISTA

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld/~ A~
              Assistant Inspector General for Audit


SUBJECT:      Office of Inspector General (OIG) Report 10-18: Audit of an American
              Reinvestment and Recovery Act Grant Awarded to the Neighborhood
              Reinvestment Corporation

Attached is the final report on the OIG's audit of the American Reinvestment and Recovery Act
grant awarded to the Neighborhood Reinvestment Corporation. This audit was performed by
OIG staff in accordance with generally accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by March 3, 2011. Notice of final action is due by September 6, 2011.

If you have questions pertaining to this report, please contact me at (202) 606-9360 or
s.axenfeld@cncsoig.gov;   or    Karen   Gardner,     Auditor, at  (202)   606-9357   or
k.qa rd ner@cncsoiq.gov.

Attachment

cc:   Kenneth Wade, Neighborhood Reinvestment Corporation (NRC), Chief Executive Officer
      Zewdneh Shiferaw, NRC, Controller
      Christina Deady, NRC, Manager Leadership Programs
      James Siegal, Chief of Staff
      Kristin McSwain, Chief of Program Operations
      William Anderson, Chief Financial Officer
      Mike Berning, Director of Field Liaison
      Bridgette Roy, Audit Resolution Coordinator
      Claire Moreno, Audit Liaison




                  1201 New York Avenue, NW  *          *
                                               Suite 830  Washington, DC 20525
                     202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                       Senior Corps * AmeriCorps * Learn and Serve America
                                                            CONTENTS

Section                                                                                                                            Page

Executive Summary ........................................................................................................          1

Results of Audit ...............................................................................................................    2

Objective, Scope, and Methodology ...............................................................................                   7

Background .....................................................................................................................    8

Exit Conference ...............................................................................................................     8

Appendices

A: National Reinvestment Corporation’s Response to the Draft Report
B: Corporation for National and Community Service’s Response to the Draft Report

                                                            GLOSSARY

ARRA         American Recovery and Reinvestment Act of 2009

CME          Content Matter Expert, NRC staff members providing content and information for
             the VISTA projects in community stabilization, foreclosure prevention, and financial
             fitness.

FPAC         Financial Planning Analysis and Contracts is a unit within NRC. Its internal policies
             and procedures are included in NeighborWorks-VISTA Program, Policies and
             Procedures Manual.

GLA          General Ledger Accounts that comprise NRC’s chart of accounts.

NHSC         Neighborhood Housing Services of Cincinnati is 1 of the 240 organizations within
             NRC’s network, and also 1 of the 7 subrecipients whose AmeriCorps*VISTA
             members the OIG interviewed.

NRC          Neighborhood Reinvestment Corporation (d.b.a. NeighborWorks America)
             established by Congress in 1978, by the Neighborhood Reinvestment Corporation
             Act.

NWA          NeighborWorks America (see NRC)

NWO          NeighborWorks Organization, any 1 of the 240 community-based organizations
             which are part of the national network known as the NeighborWorks network that
             comprises NeighborWorks America.

OIG          Office of Inspector General, Corporation for National and Community Service

VISTA        Volunteers in Service to America created by the Domestic Volunteer Service Act of
             1973.


                                                                   i
                                EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of the National Reinvestment Corporation’s (NRC)
American Reinvestment and Recovery Act (ARRA) grant. The objectives were to
determine whether NRC’s financial management system was in compliance with the
grant and ARRA requirements, and whether both NRC and Volunteers in Service to
America (VISTA) members were in compliance with applicable laws, regulations, and
grant provisions.

The audit disclosed that NRC’s financial management system was in compliance with
the requirements of grant No. 09RVADC002, with emphasis on ARRA requirements.
NRC and VISTA members were in compliance with, laws, regulations, and grant
provisions, except as discussed in Findings 1 and 2:

   1. Employee time and attendance records were not always completed on time
      (Finding 1). Contrary to NRC policy and procedures, employees submitted
      timesheets as much as 30 days after the due date for submission and
      supervisory approval. At least one employee had not submitted a timesheet for
      at least two biweekly pay periods. Labor costs were not allocated to the project
      in a timely manner. As a result, ARRA project costs were understated in the
      General Ledger Account (GLA).

   2. Neighborhood Housing Services of Cincinnati (NHSC), an NRC subrecipient was
      not in compliance with the VISTA program (Finding 2). NRC’s monitoring of its
      subrecipients and supervision of its VISTA members did not detect that one of
      seven VISTA sponsors we tested, had not implemented a VISTA program, but
      had enrolled three VISTA members. NRC did not detect the lack of the
      members’ participation in VISTA activities because it had not yet begun
      monitoring NHSC. Consequently, as of November 12, 2009, 54 days after
      enrollment, NHSC’s VISTA members had completed up to 15 percent of their
      service term in non-VISTA activities.


This final version of the American Reinvestment and Recovery Act Grant Awarded to the
Neighborhood Reinvestment Corporation audit report includes minor revisions to the
wording included in the draft audit report.




                                          1
                                   RESULTS OF AUDIT

Finding 1.   Time and attendance records were not always completed on time.

The approved budget for the VISTA Grant No. 09RVADC002 (ARRA Grant), included
100 percent of the direct time of a supervisor and up to 10 percent of the direct time of
3 Content Matter Experts (CMEs). Only one of these NRC employees consistently
submitted his/her timesheet on time. To compound the problem, supervisory approval
was submitted up to 31 days after the due date. A review of timesheets submitted in
December 2009 showed that, contrary to NRC policy and procedures, employees
submitted timesheets as much as 30 days after the due date. At least one CME had not
submitted a timesheet for at least two biweekly pay periods as of December 15, 2009.
Supervisors were often significantly late in approving already late timesheets. Labor
costs were not allocated to the project until the employees’ timesheets were approved
and entered into the accounting system. As a result, ARRA project costs were
understated and not included in the appropriate GLA in a timely manner. The table
below illustrates the extent of overdue timesheets for the CMEs.

                          Supervisor-                  Days                     Days Late
                                                                  Supervisor
  NRC        Pay Period    Approved     Timesheet    Submitted                     for
                                                                  Approved
Employee      End Date    Timesheet     Submitted      Late                     Approved
                                                                  Timesheet
                             Due                      (Early)                   Timesheet

    1        12/05/2009    12/14/2009   12/14/2009        0       12/15/2009         1
    2        12/05/2009    12/14/2009   12/17/2009        3       12/23/2009         9
    3        12/05/2009    12/14/2009   01/11/2010       28       01/13/2010        30
    4        12/05/2009    12/14/2009   12/14/2009        0       01/07/2010        24

    1        12/19/2009    12/28/2009   12/31/2009        3       01/02/2010         5
    2        12/19/2009    12/28/2009   01/27/2010       30       01/28/2010        31
    3        12/19/2009    12/28/2009   01/11/2010       14       01/24/2010        27
    4        12/19/2009    12/28/2009   12/22/2009       (6)      01/07/2010        10

    1        01/02/2010    01/11/2010   01/20/2010        9       01/20/2010         9
    2        01/02/2010    01/11/2010   01/27/2010       16       01/28/2010        17
    3        01/02/2010    01/11/2010   01/11/2010        0       01/24/2010        13
    4        01/02/2010    01/11/2010   01/05/2010       (6)      01/07/2010        (4)


While NRC policies and procedures provide for repeated warnings to employees that
have not submitted their timesheet, the policies and procedures lack consequences for
employees who do not submit timesheets or submit them late.               The lack of
consequences when coupled with the fact that employees were paid whether or not
timesheets were submitted is an internal control weakness. The policies and procedures
also lack consequences for supervisors who do not take sufficient and timely action to
validate timesheets.

Lack of timely preparation, submission, and review of timesheets can lead to incorrect
recording of time spent on each project because the memories of the employee and the
supervisor fade over time. In addition, the costs of VISTA projects will be understated in



                                            2
the GLA and the Federal Financial Report for the grant until the timesheet data is
recorded.

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Attachment B
Paragraph 8. m. Support for salaries and wages, states:

         (1) Charges to awards for salaries and wages, whether treated as direct
         costs or indirect costs, will be based on documented payrolls approved by
         a responsible official(s) of the organization. The distribution of salaries
         and wages to awards must be supported by personnel activity reports, as
         prescribed in subparagraph 2, except when a substitute system has been
         approved in writing by the cognizant agency.

         (2) Reports reflecting the distribution of activity of each employee must
         be maintained for all staff members (professionals and nonprofessionals)
         whose compensations is charged, in whole or in part, directly to awards.
         In addition, in order to support the allocation of indirect costs, such
         reports must also be maintained for other employees whose work
         involves two or more functions or activities if a distribution of their
         compensation between such functions or activities is needed in the
         determination of the organization’s indirect cost rate(s) (e.g., an employee
         engaged part-time in indirect cost activities and part-time in a direct
         function).

NRC’s NeighborWorks – VISTA Program Policies and Procedures Manual (10/2009),
states:

         Staff of NeighborWorks America complete bi-weekly time sheets via the
         “MoneyTime” system for time and expense reports. For expenses eligible
         under the grant award from CNS, the appropriate Fund/Contract code is
         used to designate those expenses. Otherwise, VISTA-related time or
         expenses are marked simply by Project/Task code as being part of
         NeighborWorks America’s contribution to the VISTA program.

Additionally, NRC’s Administrative Manual, Section 12 – Time and Expense Reports and
Paychecks, states that “time and expense reports [timesheets] are due no later than the
ninth day following the end of the previous pay period.”

Recommendations:

We recommend that the Corporation ensure NRC:

   1a.    Add language to its current policies and procedures on the submission of
          timesheets by including and enforcing consequences for repeated late
          submissions and/or approvals to ensure timely submission and review, and

   1b.    Allocates labor costs to the project in a timely manner.




                                              3
   NRC’s Response

   NRC concurred with the finding and the related recommendations. It acknowledged the
   need to have and enforce consequences for repeated late submissions of time and
   attendance reports (timesheets). In addition, NRC has proposed changing the timesheet
   submission deadline from nine to five business days after the end of the pay period; and
   separating time reporting from the expense reimbursement module when its new
   Enterprise Resource Plan system is acquired and implemented.

   Corporation’s Response

   The Corporation concurred with the finding and the related recommendations. The
   Corporation will ensure NRC adds language to its policies and procedures that will
   enforce consequences for repeated late submissions and/or approvals of timesheets.
   The Corporation will also ensure that NRC allocates labor costs charged to the grant in a
   timely manner.

   OIG Comments

   The planned actions proposed by NRC and the Corporation in their responses meet the
   intent of the recommendations.


Finding 2.   An NRC subrecipient was                not    in   compliance      with    the
             AmeriCorps*VISTA program.

NRC’s monitoring of its subrecipients and supervising of its VISTA members did not
detect that Neighborhood Housing Services of Cincinnati (NHSC), one of seven VISTA
sponsors we tested, had not implemented a VISTA program, but had enrolled three
VISTA members. NRC did not detect the lack of the members’ participation in VISTA
activities because it had not yet begun monitoring NHSC. Consequently, as of
November 12, 2009, 54 days after enrollment, NHSC’s VISTA members had completed
up to 15 percent of their service term in non VISTA activities.

Much of NRC’s oversight of members, including those at NHSC, is carried out by VISTA
Leaders, who are also members. However, NRC only has only 3 Leaders to monitor
approximately 150 members located at 60 subrecipient sites. We estimate that the cost
of supporting NRC’s VISTA Leaders is about $56,000, excluding stipends and education
awards. The VISTA leader for NHSC had not yet interacted with the VISTA members or
NHSC, as of November 12, 2009.

NHSC representatives stated that they thought the grant was for a standard AmeriCorps
program. This explanation is perplexing when one considers the information that NRC
provided to prospective applicants, including NHSC, and the information in NHSC’s
application, which described VISTA activities.

NHSC’s lack of understanding of the VISTA program had the following impact:

       (1) NHSC’s management, after notification by the auditor, was unsure how to
           most efficiently and effectively use its VISTA members. The organization’s
           only option was to re-strategize the overall plan for the program.



                                            4
         (2) One of the three VISTA members did not understand the difference between
             a regular AmeriCorps member and a VISTA member (e.g., direct vs. no
             direct service) when the member applied to the VISTA program.

         (3) One of the three VISTA members requested a transfer to the standard
             AmeriCorps service and was terminated as a result of not wanting to
             perform the duties of a VISTA member. This member preferred performing
             direct service, which was not an option of the VISTA program.

         (4) The VISTA members earned approximately eight weeks of service credit
             without participation in a planned VISTA effort that benefited the community.
             The activities of the VISTA members included assisting NHSC prepare for
             their annual Phone-A-Thon. During the period, they received credit towards
             earning an education award or stipend and received living allowances, and
             benefits, as summarized in the following table.

                      As of 11/12/09                 Member Benefit Multiplied by [C]

          Service   Days of   Percent of
           Term     Service     Service    Annual       Education                  Health
          (Days)                 Term     Allowance       Award      Stipend     Insurance   Cost of
Member      [A]       [B]     [B ÷ A = C] ($10,690)      ($4,725)    ($1,200)     ($2,700)   Service

  1        365        54        15%        $ 1,604          709         -           405      $ 2,718
  2        365        54        15%          1,604           -         180          405        2,189
  3        365        14         4%            410           -          -           104          514
                                                                                             $ 5,421


 Section II, paragraph 2(h) of the Memorandum of Agreement between the Corporation
 and NRC stated that NRC, as the sponsor, shall: “Supervise the AmeriCorps*VISTA
 members as described in the Project Narrative and paragraph 3 (“Joint Responsibilities”
 of this Part of the Agreement).”

 NRC’s grant application (application ID 09RV100582) narrative shows that it intended to
 manage NHSC’s and other subrecipient members through its VISTA Leaders, as
 follows:

         It is anticipated that approximately 150 VISTAs will be placed within
         specific markets and that these will be managed and coordinated toward
         cumulative outcomes/milestones through 3 VISTA Leaders placed
         strategically at NeighborWorks America headquarters and working closely
         with Initiatives' content experts whose work is directly related to the
         program and action plans of the VISTA members.

         Each VISTA Leader will work in close coordination with a senior content
         expert within the NeighborWorks Initiative linked to the program such as
         the Center for Foreclosure Solutions. NeighborWorks America will
         commission a seasoned Project Coordinator to manage and support the
         VISTA Leaders, and also offer support and coordination to the VISTA
         supervisors in the field. The entire program will be overseen by the
         Workforce Development Programs Manager, a key member of the



                                                5
         NeighborWorks Training staff located in Washington, D.C. The team of
         NeighborWorks staff will devote expertise and coordination to ensuring
         successful outcomes for the VISTAs and communities served by the
         NWOs. Support will include collecting and distributing best practices,
         VISTAs coordination, and programmatic oversight. Ultimate outcomes
         include all the milestones as stated in the various individual sub
         applications.

45 CFR § 2543.51, Monitoring and reporting program performance., states in part,
“(a) Recipients are responsible for managing and monitoring each project, program,
subaward, function or activity supported by the award.”

The Corporation’s VISTA Program Guidance for the Fiscal Year 2009, page 9 –
Capacity Building states that “in order to build capacity, VISTAs do not perform direct
service.” Additionally, the guidance states that “direct service does not refer to the
intensity, difficulty, or the work-place of the tasks, but rather to the focus and nature of
the tasks.”

Recommendations:

We recommend that the Corporation:

   2a.    Require NRC to reimburse the Corporation for the costs of service (member
          benefits) from NRC for the period in which its enrolled VISTA members did not
          perform VISTA activities; and

   2b.    Ensure NRC enhances its monitoring and supervising by managing its
          subrecipients and their VISTA members at the onset of member enrollment.

   NRC’s Response

   NRC does not concur with the finding and with recommendation 2a; however, NRC
   agrees that monitoring should be taken very seriously and begun early in the
   program cycle. NRC believes that NHSC was compliant with the VISTA program’s
   purpose and requirements. Because of the rapidity with which the program began,
   there was an initial lack of clarity. NRC said that when VISTA members arrived on
   site, NHSC understood VISTA requirements and was operating a VISTA program.
   NRC believes that (1) the supervisor attending Supervisor’s Orientation; (2)
   approved Volunteer Activity Descriptions (VAD); (3) VISTA members attending pre-
   service orientation; and (4) NHSC VISTA supervisor’s e-mail to CSO regarding a
   member’s desire to perform direct service are all evidence that NHSC understood
   the VISTA program’s purpose and requirements. NRC believes the auditor,
   incorrectly categorized NHSC’s Phone-A-Thon as an unallowable activity even
   though the all-hands-on-deck activity of the Phone-A-Thon was explicitly approved
   by the Corporation.

   Corporation’s Response

   The Corporation does not concur with this finding and will allow the questioned costs.
   The Corporation believes there was an initial lack of clarity related to allowable
   VISTA program activities. However, the Corporation State Office (CSO) and NRC


                                             6
    worked with NHSC to define activities and understand the goals of the VISTA
    program. The Corporation stated proposed VISTA assignments were approved by
    the CSO and NRC prior to members beginning service. The Corporation also
    believes the interaction, communication, and monitoring NRC provided to
    subrecipients met VISTA requirements.

    OIG Comments

    We agree the activities of the Phone-A-Thon were allowable activities; however we
    are not convinced NHSC had a legitimate VISTA program in place when VISTA
    members arrived on site.

    On February 19, 2010, the auditor sent NRC and e-mail requesting information in
    order to finalize audit work related to NHOC1. The e-mail stated that during the
    auditor’s meeting with the program director and NHOC's management “they
    misunderstood the grant related to the VISTA members and that they thought that
    they were actually acquiring AmeriCorps members (direct service).” This statement
    was not disputed in NRC’s response. The e-mail also stated that “NHOC's
    management indicated that they were not that familiar with the VISTA program” and
    the auditor asked if any informational meetings held with the NWOs that provided
    them with a background of the VISTA program. NRC stated that informational
    meetings were held for NWOs but did not indicate if NHOC specifically participated in
    the informational meetings.


                         OBJECTIVE, SCOPE, AND METHODOLOGY

We conducted this audit in accordance with generally accepted government audit
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives.

The objectives of this performance audit were to determine whether: (1) NRC’s financial
system is compliant with the requirements of the recovery grant awarded; (2) NRC,
VISTA members, and the programs (sponsors and subrecipients) were compliant with
applicable laws, regulations, and grant provisions; and internal controls related to the
other objectives are effective. We conducted our audit between September 2, 2009, and
March 26, 2010.

Our scope included VISTA members that served in the period May 10, 2009 through
March 26, 2010. The Corporation awarded NRC two grants that fall within the scope of
this audit: (1) Grant No. 09RVADC002, totaling $236,507, for supervision and
transportation expenses; and (2) Grant No. 09VHADC001, which is a VISTA no-cost
arrangement. It provides for NRC to administer a project aimed at building capacity of
community development nonprofit organizations around the country to reduce
foreclosures, and strengthen communities affected by foreclosures.


1
  In an e-mail dated June 23, 2010 NRC acknowledged that for the purpose of this audit report
Neighborhood Housing of Cincinnati (NHOC), Neighborhood Housing Services of Cincinnati
(NHSC) and the Home Ownership Center of Greater Cincinnati are the same organization. (E-42)


                                             7
The Corporation awarded 60 VISTA-member grants, at no cost (known as zero-dollar
grants) to NRC’s subrecipients. Our selection process, convenience sampling, did not
use any specific characteristics in the selection of a particular subrecipient for testing.
We selected a sample of seven subrecipients to perform additional audit procedures.
These subrecipients were in San Diego, CA (3 VISTAs); Tampa, FL (1 VISTA); Silver
Spring, MD (2 VISTAs); Cincinnati, OH (3 VISTAs); New Orleans, LA (2 VISTAs);
Chicago, IL (8 VISTAs); and Great Falls, MT (2 VISTAs). We interviewed the staff and
all VISTA members who were serving at the subrecipients we tested.


                                      BACKGROUND

AmeriCorps*VISTA is an anti-poverty program that provides full-time volunteers to
nonprofit organizations and local agencies that serve low-income communities. The
mission of the AmeriCorps*VISTA program is to create and expand programs that bring
low-income individuals and communities out of poverty. The VISTA program is strongly
aligned with Administration and Congressional priorities in the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

NRC (d.b.a. NeighborWorks® America) was established by Congress in 1978 in the
Neighborhood Reinvestment Corporation Act. The purpose of the NRC is to continue
the joint efforts of the Federal financial supervisory agencies and the Department of
Housing and Urban Development in promoting reinvestment in older neighborhoods by
local financial institutions in cooperation with the community, residents, and local
governments. These efforts were previously conducted by the Urban Reinvestment
Task Force.


                                    EXIT CONFERENCE

We provided a discussion draft of this report and conducted an exit conference with
Corporation and NRC representatives on March 26, 2010. The Corporation’s and NRC’s
responses to the draft report were summarized after each recommendation and are
included, in their entirety, in Appendices A and B of this report.




                                            8
                         APPENDIX A
National Reinvestment Corporation’s Response to the Draft Report
                                                                                      1325 G Street, NW, Suite 800
                                                                                           Washington, DC 20005


                                                                                                Tel (202) 220-2300
                                                                                               Fax (202) 376-2600
                                                                                               http://www.nw.org




June 4, 2010


Mr. Stuart Axenfeld
Assistant Inspector General for Audit
Office of Inspector General
Corporation for National & Community Service
1201 New York Avenue NW, Suite 830
Washington, DC 20525

Dear Mr. Axenfeld:

I am writing in response to the Office of the Inspector General’s draft report on Audit of an American
Reinvesment and Recovery Act Grant Awarded to the Neighborhood Reinvestment Corporation (NRC). Thank
you for the opportunity to comment on the report.

Finding 1: Time and attendance records were not always completed on time.
We concur with Finding 1 and Recommendations 1a and 1b. As mentioned and documented during
the audit process, we already have in place a number of auto-reminders and other procedures and
protocols to encourage timely submission of time and expense reports. Yet we recognize that more
can be done to enforce consequences for repeated late submissions. It has been a focus of our
efforts in recent years to ensure timely submission while complying with relevant laws. In addition
to those recommendations from your reports, we have gone even further by proposing to our
corporate Officers the following:

   •   Change the timesheet submission date from 9 to 5 business days after the pay period; and
   •   Separate time reporting from the expense reimbursement module when the new Enterprise
       Resource Plan system is acquired and implemented, a process that is already underway.

Finding 2: An NRC subrecipient was not in compliance with the AmeriCorps*VISTA
program.
In this case, we disagree with the auditor’s conclusion in Finding 2 and, as a result, disagree with
Recommendation 2a. NHS of Cincinnati (NHSC) was in compliance with the VISTA program
purpose and requirements. While there may have been some early lack of clarity on the part of
NHSC because of the rapidity with which this program began, it was very clear by the time the
VISTA members arrived on site that NHSC understood VISTA requirements and was operating a
VISTA program.
NHSC staff demonstrated in multiple ways their understanding of the VISTA program and
allowable activities very early in the VISTAs’ service and communicated that to their VISTA
members. The supervisor had been to Supervisor’s Orientation (SO) and the Volunteer Activity
Descriptions (VADs) which described appropriate VISTA activities had been approved by the
CNCS State Office. In addition, members had been to Pre-Service Orientation (PSO); had been
trained on the purpose and requirements of the VISTA program; and had reviewed their program
activities. They took the oath of service on the final day of the PSO before beginning their work at
NHSC. Therefore, when they began their service at NHSC they were directed to and engaged in
VISTA-appropriate, capacity-building activities from their first day on site.

The VISTA Volunteer Activity Descriptions—the main document used to describe the work that
the VISTAs will engage in—outlined appropriate, capacity-building activities for the VISTAs’ duties.
These documents guide the day-to-day work of VISTA members. They were submitted to CNCS
for review and approved by CNCS prior to the PSO. At the PSO, participants reviewed and became
very familiar with their VADs. While individuals who applied for positions as VISTAs may have
had some misconceptions about the program before they were accepted and attended orientation,
by the time they completed their PSO they understood the extent of their allowable duties. It was
also clear that NHSC would not permit direct service work beyond what is allowable.

On the second day of service (September 22, 2009), the NHSC VISTA program supervisor sent an
e-mail to CNCS State Office staff and to NRC’s program manager regarding one of the VISTA
members, stating that, “She has requested to be trained to do direct service work including counseling customers. I
explained that those functions would not be possible. We also discussed what capacity building entailed. … Prior to
this, we have had multiple conversions (sic) discussing what type of work she would be doing here.” This clearly
demonstrates that both the supervisor and the VISTA member understood the restriction on direct
service work and the need for capacity-building activities from the beginning of service.

We believe the auditor’s misconception about the activities may have occurred because the VISTA
members were engaged in a phonathon shortly before the auditor’s visit. However, any direct
service associated with that event for that short timeframe was explicitly approved by the CNCS
State Office. It was an “all-hands-on-deck” event in which the entire organization was also engaged.
It would have been disruptive and inefficient for the VISTAs to be otherwise engaged; it aided the
VISTA members’ understanding of the organization and its work; and it provided awareness and
skills that would be useful to the VISTA members’ organizational capacity-building work.

We agree with Recommendation 2b. NRC takes its monitoring responsibilities very seriously and
early in the program had already begun monitoring NHSC’s work, including:

        •    Ensuring that all NHSC VISTA members attended the Pre-Service Orientation in
             September and that the VISTA supervisor attended the Supervisors’ Orientation in June;
        •    Requesting, receiving and reviewing the NHSC VADs;
        •    Processing the Memorandum of Agreement signed by NHSC;
        •    Communicating with NHSC with instructional e-mails, teleconferences and recorded
             webinars for all NeighborWorks VISTA supervisors and members that included
             information about direct service versus capacity-building and other important tips and
             guidelines; and
        •    Responding to questions and interacting with NHSC staff, including the aforementioned
             e-mail from NHSC to NRC and CNCS on September 22 (the VISTA members’ second
             day of service).

We believe strongly that the investment made by CNCS in these VISTA volunteers was sound and
appropriate, with an excellent return on the investment for the Corporation and for the community.
The VISTA program has been a tremendously positive experience for the participating
NeighborWorks organizations and for the VISTA members. We are thrilled to be partnering with
CNCS on this program and we look forward to continuing to grow these impacts through the years.

The first year of the program was a time of learning and infrastructure development at NRC and it
has also been a time of great accomplishments at the community level. We appreciate the input that
has been provided via the audit process.

Again, thank you for the opportunity to comment on the report. If you have any questions or
comments, please do not hesitate to contact me.

Sincerely,




Kenneth D. Wade
Chief Executive Officer
                               APPENDIX B
Corporation for National and Community Service’s Response to Draft Report
                                   NATIONAL&!
                                   COMMUNITY
                                   SERVICEr.IWIoool::l

                                           June 4,2010


TO:           Stuart Axenfeld
              Assistant Inspect~
                               or f6enenl      flJA~it
FROM:         PauIDavis            'l / (11fA--
            ~ector, ~4ffSTA __

           ~~       ~~k
              Director     ffiee f GTants Manage~

CC:           William Anderson, CFO for Finance
              Frank Trinity, General Counsel
              Bridgette Roy, Audit Resolution
              Tina Dunphy, Ohio State Program Director

SUBJECT:      Response to OIG Draft of an American Reinvestment and Recovery Act
              Grant Awarded to the Neighborhood Reinvestment Corporation


Thank you for the opportunity to review the draft report on the Corporation's American
Reinvestment and Recovery Act grant awarded to the Neighborhood Reinvestment
Corporation. The Corporation reviewed the OIG report, met with the OIG Audit
Manager and the grantee and reviewed the NRC response to the report. We are
addressing all draft findings at this time. If the DIG concurs with our decisions, the
Corporation will complete confirmation of corrective action within 90 days after the audit
issue date.

Finding 1: Time and attendance records were not always completed on time.

The auditors recommend that the Corporation ensure that NRC:

la. Adds language to its current policies and procedures on the submission of timesheets
by including and enforcing consequences for repeated late submissions and/or approvals
to ensure timely submission and review; and
1b. Allocates labor costs to the project in a timely manner.

Corporation Response: The Corporation agrees with the finding and recommendations
and will ensure that NRC adds language to its current policies and procedures on the
submission of timesheets as recommended. We will also ensure NRC allocates labor
costs to be charged to the CNCS grant in a timely manner and confirm corrective action
is complete by August 31, 2010.


                         1201 New York Avenue, NW     *
                                                     Washington, DC 20525
                                                                                       USA~3~.=.
                               202-606-5000    *
                                               www.nationalservice.org
                                                                                       Freedom Corps
                         Senior Corps   * AmeriCorps * Learn and Serve America         The President's Call to Service
Finding 2: An NRC sub recipient was not in compliance with the AmeriCorps
VISTA program.

The auditors recommend that the Corporation:

2a. Require NRC to reimburse the Corporation for the costs of service (member benefits)
from NRC for the period in which its enrolled VISTA members did not perform VISTA
activities; and
2b. Ensure NRC enhances its monitoring and supervising by managing its sub recipients
and their VISTA members at the onset of enrollment.

Corporation response: We do not agree with the auditor's finding that one of NRC's
subrecipients, Neighborhood Housing Services of Cincinnati (NHSC), had not
implemented a VISTA program. Because the organization had operated an AmeriCorps
StatelNational program and was applying for VISTA members for the first time, there
may have been some initial lack of clarity related to allowable VISTA program activities
compared to AmeriCorps StatelNational. However, by the time the Corporation State
Office and NRC worked with NHSC staff to define activities and understand the goals of
the VISTA program, the designed activities met requirements for the VISTA program.
The proposed activities and VISTA assignments were approved by both NRC and the
Corporation's State Office staff and in place before members began their service.
Members received and reviewed the description of the planned activities at Pre-Service
Orientation from September 15-18, 2009, and understood their responsibilities.

As noted in the NRC response to the audit, NRC staff interacted frequently with NHSC in
the months before the members began service to review program activities, to ensure staff
attended VISTA program training and members attended pre-service orientations, and to
communicate program requirements. This interaction and on-going monitoring and
communication meets VISTA requirements. Therefore, the Corporation allows the
questioned costs and no further corrective action is required related to this finding.
